,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

November 4, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Benjamin Scott Brewer v. State

of

Tennessee

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 1,733 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
"1
Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commissioti exp. October 12,2022

w

Sworn and subscribed before me this 4thday of November 2020.

